          LEGAL SERVICES CORPORATION
          OFFICE OF INSPECTOR GENERAL




           REVIEW OF GRANTEE’S
            TRANSFER OF FUNDS
           AND COMPLIANCE WITH
       PROGRAM INTEGRITY STANDARDS




Grantee: California Rural Legal Assistance, Inc.

               Recipient No. 805260

                Report No. AU 04 -02
                  December 2003


                  www.oig.lsc.gov
                                 TABLE OF CONTENTS


RESULTS OF AUDIT ...................................................................................1

  Compliance with Requirements.................................................................2
  Recommendations ....................................................................................6

  Statement of Facts and Client Identification..............................................6
  Recommendation ......................................................................................7

  Improper Rent Payments ..........................................................................7
  Recommendations ....................................................................................7

  Cases under Section 17200 of the California Code ..................................8


BACKGROUND ...........................................................................................9


OBJECTIVES, SCOPE, AND METHODOLOGY .......................................10


SUMMARY OF GRANTEE’S COMMENTS ON DRAFT
REPORT AND THE OIG’S RESPONSE ...................................................13


APPENDIX I – Grantee Comments .........................................................I - 1


APPENDIX II - OIG Staff Responsible for the Audit and Report .............II - 1




                                                 i
                                RESULTS OF AUDIT

The Legal Services Corporation (LSC) Office of Inspector General (OIG) conducted
this audit to determine whether California Rural Legal Assistance, Inc. (grantee)
complied with certain requirements of 45 CFR Part 1610. This regulation prohibits
grantees from transferring LSC funds to an organization that engages in activities
prohibited by the LSC Act and LSC appropriation acts, and LSC regulations. To
comply with these requirements, grantees must be legally separate from such
organizations, not transfer LSC funds to them, not subsidize any restricted activity,
and maintain physical and financial separation from them. An exception applies for
transfers of LSC funds solely for private attorney involvement activities.

Between January 1, 2000 and May 10, 2002 the grantee did not maintain objective
integrity and independence from a legal organization that engaged in prohibited
activities in violation of 45 CFR 1610.

In addition, the grantee:

       •   did not prepare statements of facts and identify clients in certain cases,
           and
       •   improperly made rental payments for an organization in violation of 45 CFR
           1630.

The OIG reviewed cases initiated under California Business & Professional Code
Section 17200 and concluded that the grantee did not violate LSC regulations
covering class action suits or eligibility determinations.

Recommendations for corrective action are on pages 6 and 7.

                      OBJECTIVE INTEGRITY AND INDEPENDENCE

The grantee did not maintain objective integrity and independence from the California
Rural Legal Assistance Foundation (Foundation) a legal organization that engages in
LSC restricted activities.

Program Integrity Requirements

Section 1610.8 of LSC's regulations states that grantees must have objective
integrity and independence from organizations engaged in LSC restricted activities.
The grantee meets the requirements of this section if:

           •   the other organization is a legally separate entity,




                                             1
          •   the grantee does not transfer LSC funds to the organization and LSC
              funds do not subsidize restricted activities, and

          •   the grantee is physically and financially separate from the other
              organization.

The preamble to Section 1610.8 requires grantees to ensure that it is not identified
with restricted activities and that the other organization is not so closely identified with
the recipient that there might be confusion or misunderstanding about the recipient’s
involvement with or endorsement of prohibited activities. A grantee will be
considered to be subsidizing the activities of another organization if it provides the
use of its resources for restricted activity without receiving fair value for such use.
Guidance promulgated by LSC interpreting the program integrity requirements
discusses the issue of separate personnel, and states that the greater the
responsibilities of the staff who are employed by both organizations, the more danger
that program integrity will be compromised.

COMPLIANCE WITH REQUIREMENTS

The grantee satisfied the first requirement. The Foundation is a separate legal
organization. The second and third requirements were not met. The grantee did not
improperly transfer LSC funds to the Foundation but it subsidized restricted activities.
The grantee maintained a close relationship with the Foundation that makes it difficult
to distinguish between the two organizations and results in a violation of the program
integrity regulation. The specific problem areas are:

   •   Co-counseled cases
   •   Shared staff
   •   Rent subsidy
   •   Physical separation of facilities

Each issue is discussed in the following.

Co-counseled Cases

The grantee co-counsels cases with the Foundation. Grantee attorneys are the lead
counsel in most cases and in one case a Foundation attorney was the lead counsel.
For some cases a part time CRLA attorney was the lead counsel. On one case the
same individual was the lead attorney for the Foundation.

The organizational structure of the grantee is important to the discussion of the co-
counseled cases. The grantee has four Directors of Litigation, Advocacy and
Training (DLATs), each responsible for oversight of grantee operations in
approximately one-quarter of the State of California. One of the grantee’s DLATs
works part time for the grantee and part time for the Foundation. The DLATs report
directly to the grantee’s Executive Director. One step below, and reporting to, the


                                             2
DLATs are the Office Directors, each responsible for direct oversight of one of the
grantee’s branch offices.

We reviewed six co-counsel agreements the grantee had with the Foundation. The
grantee was the lead counsel in five cases and the Foundation for one case.

   •   The Foundation was the lead counsel on case A. The lead Foundation
       attorney for the case was the grantee’s part time DLAT. The grantee attorney
       on the case was another DLAT.

   •   The grantee was the lead counsel on case B. The grantee’s lead attorney was
       an office director for one of its branch offices. The Foundation’s attorney was
       the grantee’s part time DLAT who was the lead attorney for the Foundation on
       case A.

   •   The grantee was the lead counsel on the four remaining cases. In one case,
       the grantee’s part time DLAT was the grantee’s attorney of record. She had
       no involvement in these cases as an attorney for the Foundation.

The co-counsel agreements for the five cases on which the grantee was the lead
counsel were similar. In these five cases the vast majority of legal work was to be
done by the grantee. The grantee was responsible for:

   •   Maintaining the master case file
   •   Maintaining a calendaring system for all litigation related dates
   •   Insuring all filings and other actions occur in a timely manner
   •   Developing and/or overseeing the development of any discovery plan and its
       implementation
   •   Coordinating responsibility for court appearances, including responsibility for
       preparation for the appearances
   •   Initial drafting of pleadings and moving and supporting papers
   •   Polling of parties regarding significant decisions which must be made
   •   Coordinating contact with the media, approving written press releases, and
       maintaining a media file

The Foundation was responsible for the review and edit of pleadings and moving and
supporting papers drafted by the grantee. The grantee was responsible for all costs
and expenses of the litigation. The Foundation was allowed to seek attorneys’ fees.

The co-counsel agreement for the case on which the Foundation was lead counsel
did not list the responsibilities of the lead counsel. Costs were to be shared.




                                           3
Shared Staff

Two senior level grantee attorneys also worked with the Foundation. A DLAT in the
San Francisco office worked part time for the Foundation. The former office director
of the Oceanside office was a full time employee but also worked for the Foundation.
LSC guidance in an October 30, 1997 Program Letter states that “… the greater the
responsibilities of the staff who are employed by both organizations, the more danger
that program integrity will be compromised.”

The part time DLAT who also worked for the Foundation was to work 90 percent of
the time for the grantee and 10 percent for the Foundation. The DLAT is one of the
grantee’s most senior positions. This DLAT was responsible for the grantee’s cases
dealing with workers’ wage cases. She was also responsible for supervising offices
in one–quarter of the state.

The grantee’s full time manager of the Oceanside office also worked simultaneously
for the Foundation. This individual was the office director for the grantee’s
Oceanside branch office until January of 2001, when she left her grantee job. During
this time she also held a director’s position with the Foundation. After leaving the
grantee’s employment the individual continued to work for the Foundation.

On the Foundation’s web site the individual was identified as the Director of the
Border Project. Her telephone number was the same number as her listing at the
grantee’s Oceanside branch. Newspaper articles from 1999 and 2000 identified her
as a Foundation director. Two letters to high ranking U.S. Department of Justice
officials identified the individual as director of the Foundation’s Border Project. Both
letters dealt with illegal immigrants. An article in the San Diego Union Tribune
newspaper on illegal immigration also identified the individual as a project director for
the Foundation.

We verified that the individual was a full time grantee employee until January of 2001.
Until she left the grantee’s employment publicly available information indicated that
this individual was doing prohibited activities, lobbying Federal Government officials
on behalf of illegal aliens. Grantee staff in the Oceanside office and the individual’s
supervisor told us that they did not know of the Office Director’s relationship with the
Foundation.

Rent Subsidy

The grantee subsidized the Foundation by routinely allowing late payment of rent
over a long period of time. Between June 2001 and May 2002 the Foundation
seldom paid its rent for three offices on time.

The grantee leased office space to the Foundation in San Francisco, Modesto and
Fresno. The leases provided that rental payments were due on or before the first day




                                           4
of each month. The leases were unusual in that they did not provide for late payment
fees or interest charges in the event rents were not paid when due.

From June 2001 through April 2002, the Foundation paid its rent at three or four
month intervals rather than monthly. In September 2001, the Foundation paid the
grantee the current rent due for September and the rents overdue for June, July, and
August 2001. The October 2002 rent was paid on time. Five months later, in
February 2002, the Foundation paid the grantee the current rent due for February
2002 and the rents overdue for November and December 2001, and January 2002.
Three months later, in May 2002, the Foundation paid the grantee the current rent
due for May 2002 and the rents overdue for March and April 2002.

The following chart shows the total amount of late payment by each Foundation
office.

      San Francisco $ 14,959
      Modesto          7,000
      Fresno           6,708

        Total          $ 28,667

After a brief period of on time payment, the Foundation made $ 4,128 in late rent
payments for its Fresno office from October 2002 until May 2003.

By allowing the interest free use of these funds the grantee subsidized the
Foundation activities. Subsidizing the Foundation through allowing late rental
payments is an old unsolved issue for the grantee. A review by LSC’s Office of
Compliance and Enforcement in 2000 disclosed the same problem with late rental
payments but the grantee failed to correct the problem.

The problem with late rental payments was mitigated in mid 2002 when the
Foundation moved from the space it rented from the grantee in San Francisco and
Modesto. The fact remains that over a lengthy period of time the grantee subsidized
the operations of an organization that did prohibited and restricted activities.

Physical Separation of Facilities

The grantee did not physically separate itself from the Foundation in the shared office
space in Modesto. A large sign outside the building indicated that the grantee and
the Foundation occupied separate suites of offices. However, inside the building the
grantee and the Foundation were located in the same office suite. The grantee’s
space was not separated from the Foundation’s space and the two organizations
were indistinguishable. Each organization had a separate entrance but there was no
separation of offices inside the suite. We were told that the grantee’s staff has been
instructed to not enter Foundation space. Subsequent to completion of on-site audit
work, the Foundation moved from the shared space.



                                          5
Conclusion

Considering all the factors, the grantee maintains a relationship with the Foundation
that violated LSC’s program integrity regulation. While the problem has been
somewhat mitigated by the departure of a grantee employee and the Foundation
vacating space previously rented from the grantee, the sharing of senior staff and the
close relationship on co-counseled cases continues. This needs to be corrected.

Recommendations

The grantee’s management needs to take steps to provide adequate separation from
the Foundation. Specifically, we recommend that the Executive Director:

1.1   Preclude the part time litigation director from participating on cases that are
co-counseled with the Foundation

1.2    Adopt policies and procedures precluding senior staff, DLATs and office
directors, from co-counseling case with the Foundation

1.3    Preclude senior staff from working for the Foundation on a part time basis

1.4    Adopt procedures so that in the future full time grantee employees are
precluded from working simultaneously for the Foundation

1.5   Require that future leases for space rented to other organizations follow
standard commercial practices and provide for late payment penalties


STATEMENT OF FACTS AND CLIENT IDENTIFICATION

The grantee did not prepare statements of facts nor identify all clients as required by
45 CFR 1636.2. These cases were identified as 17200 cases in reference to the
section of the California Code they were filed under (see page 8 for further discussion
of these cases). The grantee provided information that indicated approximately 435
plaintiffs were represented and 238 were named and identified in the pleadings. The
remaining 197 were not identified. Statements of facts were not prepared for the
unidentified 197 plaintiffs.

Section 1636.2 of LSC’s regulations requires that when a grantee files a complaint in
court or participates in litigation, it must identify each plaintiff and prepare a statement
of facts that each plaintiff signs.

Grantee management stated that it complied with the regulation and that 45 CFR
1636.2 does not require statements of facts or client identification for clients in these
cases.



                                             6
We disagree with the grantee. A review of pleadings indicated that the unnamed and
thus unidentified plaintiffs were parties to the litigation. Specific facts concerning their
situations were cited in the pleadings. The requirements of 45 CFR 1636.2 apply.
The grantee needs to adopt procedures to ensure compliance with 45 CFR 1636.2.
All plaintiffs should be identified and they should sign statements of facts.

Recommendation

2.1     We recommend that the Executive Director implement procedures to ensure
that statements of facts are prepared for all 17200 type cases and that all clients are
identified

IMROPER RENT PAYMENTS

The grantee improperly paid rent for a separate organization, the San Luis Obispo
Legal Alternatives Corporation (SLOLAC). This organization is co-located with the
grantee’s branch office in San Luis Obispo. In total, the grantee provided $6,845 in
subsidization during 2000 and 2001.

SLOLAC is a separate legal organization that provides legal services to the elderly.
The grantee used LSC grant funds to pay SLOLAC’s rent from 2000 through 2001.
SLOLAC does not screen clients for their citizenship/alien status and therefore may
serve clients who are ineligible to receive LSC assistance under 45 CFR Part 1626.
Grantee staff told us that the payments were made as part of its PAI program. The
grantee’s financial records did not support this contention. We calculated that the
grantee improperly spent $6,845 in LSC grant funds over the two year period.

Section 1630.3(a) (2) of LSC’s regulations provides that expenditures by a grantee
are allowable under the grantee’s grant or contract only if the grantee can
demonstrate that the cost was reasonable and necessary for the performance of the
grant or contract as approved by LSC. The rent payments for SLOLAC did not meet
the requirements of this regulation.

Recommendations

To correct the rent payment problem, we recommend that the Executive Director:

3.1    Require SLOLAC to pay their fair share of the rent

3.2    Require the managing attorney in the San Luis Obispo office to review all
rental payments and allocations quarterly to ensure that the subsidization does not
reoccur.




                                             7
CASES UNDER SECTION 17200 OF THE CALIFORNIA CODE

The grantee initiates cases under California Business & Professional Code Section
17200 which allows actions for unfair competition to be brought on behalf of
individuals and the general public. Two questions about these cases are: do they
violate the prohibition on doing class action cases and is the grantee representing
clients without determining their eligibility?

Part 1617 of LSC’s regulations precludes grantees from initiating or participating in
class action suits. These suits are defined as “… a lawsuit filled as, or otherwise
declared by the court … to be a class action pursuant…” to various Federal, state, or
local rules of procedure. Part 1611 requires grantees to determine the financial
eligibility of clients and Part 1626 requires that only citizens or eligible aliens (with
some specific exceptions) be accepted as clients.

For 17200 cases, the grantee accepts individuals as clients after determining they
meet LSC eligibility requirements. Some of the clients are named plaintiffs and
others are unnamed plaintiffs in the lawsuit the grantee files. Other individuals, who
are in the same situation and have the same cause of action as the grantee’s clients,
may benefit from the lawsuit and could receive monetary awards. No eligibility
checks are made on these individuals because they are unknown to the grantee
when the action is filed.

An example of a 17200 type of case involves agriculture workers having a pay
dispute with their employer. One or more workers meet the LSC eligibility
requirements and become the grantee’s clients. A lawsuit is filed under Section
17200 for the disputed pay. The grantee wins or settles the case and the clients as
well as all the other workers, who may or may not be eligible for LSC funded
assistance, benefit in a monetary award or settlement.

The grantee provided information on 55 cases filed under Section 17200. Most of
the cases involved wage claims and farmworker housing issues. These cases had
approximately 460 eligible clients and an additional 779 individuals who benefited
from the litigation and whose eligibility was not determined. The grantee informed us
that as many as 2,610 additional individuals, whose eligibility had not been
determined, could benefit from lawsuits in process as of August 2002. In some cases
the court directs the grantee to distribute settlement funds to the individuals involved
in the suit. The grantee would therefore provide services to individuals who may or
may not be eligible.

In eight cases, only injunctive relief was sought and the general public will benefit.

Settlements had been reached in 33 cases. Plaintiffs were the only beneficiaries in
eight cases. The grantee established financial and citizenship eligibility for all
plaintiffs. In the remaining 25 cases the beneficiaries included unknown individuals



                                            8
whose eligibility had not been established. We estimated that about 3,800
individuals who were not party to the litigation may ultimately benefit.

Settlement had not been reached in the remaining 14 cases and both plaintiffs and
the general public could benefit. We were unable to estimate how many individuals
could benefit from the litigation.

The OIG concluded that the grantee had not violated 45 CFR 1617, 1611 or 1626.
The 17200 cases were not filed as nor have the courts certified them as class
actions. Therefore 45 CFR 1617 has not been violated. The grantee determined
eligibility for all named and unnamed plaintiffs. The other individuals who may benefit
from the suits are not grantee clients nor are they represented by the grantee. Parts
1611 and 1626 do not require the grantee to determine the eligibility of individuals
who benefit from, but are not a party to, litigation.



                                      BACKGROUND
The grantee is a nonprofit corporation established to provide legal services to
indigent individuals who meet eligibility guidelines. It receives both a basic field grant
and a migrant grant from LSC. The basic field grant services specific counties in the
state of California (including two service areas acquired through merger effective
January 1, 2001) and the migrant grant services the entire state. The grantee is
headquartered in San Francisco, California. Branch offices are located in throughout
the state. At the time of our visits, the grantee had total staff of 128, including 43
attorneys. The grantee received total funding of about $8.6 million during their most
recent fiscal year, which ended December 31, 2001. LSC provided about $5.9
million, or about 69 percent of the total funds received by the grantee during that
year. LSC is provided about $5.9 million to the grantee during 2002.

Our audit was initiated when the OIG received a letter from the Western United
Dairymen about activities engaged in by the grantee. A letter from the Honorable
Calvin M. Dooley subsequently followed, also expressing concern about activities
and relationships of the grantee.

Grantees are prohibited from transferring LSC funds to another person or
organization that engages in restricted activities except when the transfer is for
funding PAI activities. In these instances the prohibitions apply only to the LSC funds
that were transferred to the person or entity performing within the PAI program.
Grantees must also maintain objective integrity and independence from organizations
that engage in restricted activities. Grantees may not use grantee resources to
subsidize restricted activity. “Subsidize” means to use grantee resources to support,
in whole or in part, restricted activity conducted by another entity.




                                            9
                 OBJECTIVES, SCOPE, AND METHODOLOGY
This audit assessed whether the grantee complied with requirements established in
45 CFR Part 1610 relating to the transfer of funds to other organizations and program
integrity standards.

Our review covered the period January 1, 2000 through May 10, 2002. The OIG
began the audit fieldwork in early January 2002 and visited the grantee’s offices in
San Francisco, Fresno, Modesto, Marysville, Salinas, Oceanside, and San Luis
Obispo during the periods January 7-18, February 25 to March 8 and April 29 to
May 10, 2002. At LSC headquarters in Washington, DC, we reviewed materials
pertaining to the grantee including its Certifications of Program Integrity, audited
financial statements, grant proposals, and recipient profile. OIG staff discussed
issues relating to the grantee with LSC management officials.

We reviewed the leases and subleases of the grantee to ascertain any relationship
between the grantee and entities that may be engaged in LSC restricted activities. If
such a relationship was revealed, we conducted an analysis to ensure that the lease
payments to the grantee had been calculated at fair market value. Additionally, we
reviewed the rental revenue account to ensure that payments to the grantee were
made on a timely basis.

We conducted on-site visits of the central office in San Francisco and the following
six grantee branch offices: Modesto, Fresno, Marysville, Salinas, Oceanside and San
Luis Obispo. We toured the office space and the building they were located in,
assessing compliance with the criteria set forth in 45 CFR Section 1610.8(a)(3). We
visited the grantee’s financial statement auditor.

A legal services provider, California Rural Legal Assistance Foundation, was located
in the same building as the grantee’s offices in San Francisco, Fresno, Modesto and
Oceanside but Foundation staff would not speak to us. A different legal services
provider, San Luis Obispo Legal Alternatives Corporation, was located in the same
building as the grantee’s office in San Luis Obispo. The OIG interviewed the Project
Director of San Luis Obispo Legal Alternatives Corporation.

During the on-site visit, the OIG interviewed and collected information from the
Executive Director, senior management, case handlers, and other staff. We
ascertained whether the grantee’s employees were generally knowledgeable
regarding the guidelines set forth in Part 1610. The audit included an assessment of
the grantee policies and procedures applicable to the transfer of funds to other
organizations and program integrity requirements.

The OIG gained an understanding of the client intake process utilized by the grantee.
We identified the grantee’s controls regarding its oversight of its Private Attorney
Involvement program.




                                         10
The OIG identified and reviewed cases that had been filed in court to determine if the
grantee had engaged in a restricted or prohibited activity. All cases were discussed
with a Director of Litigation and Training or a Directing Attorney employed by the
grantee.

The OIG reviewed three separate populations of cases that had been filed with the
courts as follows:

   •   a sample of 97 cases selected from the case listing provided by the grantee
       used to support CSR submissions to LSC (An additional 10 cases were
       selected, for a total sample size of 107 cases);

   •   a sample of 19 co-counseled cases, totaling 127 client case files; and

   •   55 cases identified by the grantee as involving actions taken on behalf of the
       public pursuant to California Business & Professions Code Section 17200. (In
       addition, 10 client case files were sampled for review.)

We reviewed fifty-five cases identified by the grantee as involving actions taken on
behalf of similarly situated members of the public pursuant to California Business &
Professions Code Section 17200. The pleadings from each of these cases were
reviewed in order to determine whether the cause of action involved restricted and/or
prohibited activities and to ascertain the beneficiaries of this cause of action.
Additionally, the existence of any co-counsel arrangement was confirmed and the
parties identified. Furthermore, the settlement agreements (if applicable) were
reviewed to ascertain the number of people benefiting from this action and whether
any fees and/or costs were awarded to any parties to the litigation.

The OIG reviewed the grantee’s financial accounts for vendors including contractors,
employees, and consultants. From the 1,633 vendors identified in the grantee’s
Master Vendor List, we judgmentally selected 129 vendors and examined 100
percent of the activity. We reviewed 820 transactions totaling $1.08 million. In
addition to the vendor charges reviewed, we reviewed $465,000 in payments related
to three subgrants to the Foundation to determine whether LSC funds were used.

We also reviewed three miscellaneous income categories during CY 2000 and
2001—donations, rents, and attorneys fees. Of the $363,581 received through 1,342
donations, we reviewed 264 donations totaling $149,900. We also reviewed 116
rental payments totaling $81,510 received from 9 tenants, and $47,581 received in
attorneys fees, court and transcription costs, and sanctions.

For the branch offices located in Madera and San Luis Obispo, we reviewed the
office space expenses, by funding source, for the years 2000 and 2001. We
calculated LSC’s funded portion of these costs to assess allowability.




                                          11
The OIG assessed the process used by the grantee to allocate direct and indirect
costs to LSC and non-LSC funds. Policies and procedures relating to payroll and
timekeeping were evaluated.       The grantee’s employees were interviewed to
determine their understanding as to which fund they should charge their time relative
to case handling.

All agreements between the grantee, and other organizations and individuals, were
requested. The OIG reviewed all materials provided including grant funding
instruments, leases, and contracts.

We performed this audit in accordance with Government Auditing Standards (1994
revision) established by the Comptroller General of the United States and under
authority of the Inspector General Act of 1978, as amended and Public Law 105-277,
incorporating by reference Public Law 104-134.




                                         12
 SUMMARY OF GRANTEE’S COMMENTS ON DRAFT REPORT AND
                THE OIG’S RESPONSE


The grantee’s comments stated that the report confirms that it is “… in full
compliance with applicable LSC rules and policies.” The comments disagreed with
the report’s findings and recommendations and asked that the OIG reconsider its
conclusions. The grantee’s comments are in Appendix l.

The grantee stated that the OIG audit focused on its relationship with the California
Rural Assistance Foundation (Foundation) and “ultimately expanded into a review of
CRLA compliance with LSC regulatory changes implemented by Congress in 1996.”
The grantee also stated that the OIG review required it to produce hundreds of pages
of specially prepared legal memoranda and required thousands of hours of staff time.

The OIG’s review of compliance with program integrity requirements necessitated a
review of the grantee’s relationship with the Foundation, an organization engaged in
LSC restricted activities. The OIG also reviewed the grantee’s relationships with
other organizations. Contrary to the grantee’s assertion, the OIG did not undertake a
comprehensive review of compliance with the restrictions imposed by Congress in
LSC’s 1996 appropriation. The OIG did not request and did not require the vast
majority of legal memoranda and attachments prepared by the grantee, nor did the
audit require the grantee to expend the inordinate amount of staff time it allegedly
devoted to the audit process. The memoranda were prepared and time was spent
primarily at the grantee’s discretion.

The OIG considered the grantee’s comments in finalizing the report and made some
revisions. The OIG does not agree with the grantee’s statement that it complies with
LSC rules and regulations. To the contrary, the grantee did not comply with 45 CFR
Parts 1610, 1636, and 1630 during the audit period. We made a few minor revisions
in the text of the report that do not impact on our findings.

The grantee provided extensive comments, some of which were not directly relevant
to the OIG’s findings. The OIG summarized and addressed what it considered the
grantee’s significant and relevant comments. Not all comments were addressed.
The fact that a specific comment was not addressed should not be interpreted as
meaning that the OIG agrees with the comment.

A summary of the grantee’s comments and OIG response for each finding follows.

GRANTEE COMMENT – PROGRAM INTEGRITY

The grantee disagreed with the report’s finding that it did not comply with program
integrity requirements.




                                         13
The OIG finding was based on four specific problem areas as follows: co-counseled
cases with the Foundation, shared staff, rent subsidy, and physical separation of
facilities. The grantee’s comments disputed each specific problem area.

The grantee disagreed that its overall co-counseling relationship with the Foundation
violated 45 CFR 1610. According to the grantee, co-counseling was an effective
means of involving the private bar in the delivery of legal services to the low income
community and the grantee has identical co-counseling arrangements with over two
dozen other firms. The comments confirmed the co-counseling relationship between
the grantee and the Foundation described in the draft report. The comments stated
that the part time DLAT who co-counseled the case for the Foundation did not
supervise the Directing Attorney who was the grantee attorney for the case as stated
in the report.

The report included a discussion of the Director of the Oceanside office position as
director of the “Border Project” for the Foundation while a full time grantee employee.
Her telephone number on the Foundation’s web site was the same as her grantee
telephone number. Grantee comments stated that to the best of management’s
knowledge the individual was an unpaid volunteer for the Foundation and did not
engage in the practice of law. The comments agreed that the telephone number
listing was inappropriate.

The grantee stated that LSC’s regulations do not provide specific limits on sharing
personnel. According to the grantee, the LSC guidance focuses on the number of
shared staff as a percentage of the total staff. A small percentage of the staff was
involved with the Foundation and the grantee asserted that it complied with the
regulation.

The grantee disagreed with the finding that it subsidized the Foundation by allowing
late rent payments for space leased in three grantee offices. The information
provided confirmed that the Foundation had paid its rent late without interest being
charged. According to the grantee, its accounting procedures became more rigorous
before the issuance of the draft report and fully meet the OIG recommendation.
Documentation was provided indicating that in May 2002 and October 2003 the
Foundation was billed for interest charges related to late payments. Subsequent rent
payments were asserted to be on time.

The grantee stated that the report’s conclusion that the space rented to the
Foundation in Modesto was not physically separated from the grantee’s space
appeared to extend the 1610 requirements beyond what was commonly understood.
According to the grantee, the Foundation’s space was identified by appropriate signs
and confusion was unlikely because the distinction between the grantee’s space and
the Foundation’s space was apparent to the public. The grantee also stated that this
Foundation lease was terminated in mid-2002.




                                          14
In disagreeing with the OIG’s findings, the grantee referred to a review conducted by
LSC’s OCE that preceded the OIG’s audit. The grantee stated that OCE examined
the same issues as the OIG and found no violation of the program integrity
requirements of 45 CFR Part 1610. According to the grantee, OCE indicated that the
grantee’s relationships with the Foundation did not raise material concerns and did
not violate the objective integrity and independence standard of 45 CFR Part 1610.

The grantee declined to implement the OIG’s five recommendations related to these
findings.

OIG RESPONSE

The comments did not provide information to change the OIG’s conclusion that the
grantee did not comply with the program integrity requirements.

Part 1610 of LSC’s regulations requires that program integrity be accessed under
three criteria, the third of which is physical and financial separation, 45 CFR
§1610.8(a)(3). Physical and financial separation is determined through a review of
the totality of the circumstances. The OIG evaluated the overall relationship between
the grantee and the Foundation and concluded that the program integrity
requirements were not met. The grantee addressed each of the four OIG identified
problem areas as discrete issues and did not discuss the need for an assessment of
the totality of the circumstances.

LSC guidance on shared personnel states that percentage of staff shared should be
considered when assessing the separateness of organizations. The guidance also
requires that the responsibilities of the staff shared be considered. The grantee had
two senior level attorneys co-counsel cases with the Foundation. One of the
attorneys was the attorney for the grantee on a case and the attorney for the
Foundation on another case. This arrangement does not provide for adequate
separation between the grantee and the Foundation. The grantee raised an issue
about the description of a supervisory relationship. The OIG deleted the reference to
supervision in the report.

A third senior level attorney, the Director of the Oceanside office, was identified as
occupying an important position with the Foundation. The grantee stated that it was
unaware of this arrangement but now understands that the individual was an unpaid
volunteer for the Foundation. Given the close relationship between the grantee and
the Foundation it is difficult to understand how the grantee did not recognize the
individual’s significant position with the Foundation. The grantee’s part time DLAT,
who also worked for the Foundation, supervised the Director at the Oceanside office,
underscoring the rationale for limiting the sharing of senior staff discussed above.
The listing of the director’s grantee telephone number as her Foundation telephone
number indicates that she used grantee assets for conducting Foundation business.
The grantee violated 45 CFR Part 1610.



                                         15
In summary, the grantee did not provide any information that would warrant
significantly changing the co-counseling and shared staff discussion in the report.
Accordingly, the only change made was to delete the reference to supervision as
mentioned above.

It is difficult to understand the grantee’s disagreement with the finding that it
subsidized the Foundation by allowing late rental payments. The grantee provided
information that substantiated the finding. The comments did not dispute that the
Foundation’s rent payments were late and interest was not charged. Clearly, this
resulted in a subsidization of the Foundation.

The grantee did begin to bill the Foundation for interest on late payments in
May 2002, after the OIG pointed out the problem and insisted that such billings were
needed. The grantee provided information indicates that shortly after the OIG staff
completed on-site audit work Foundation rental payments were again late and
interest was not charged. In October 2003, the grantee billed interest for late rental
payments that were made between September 2002 and January 2003. The OIG did
not change the finding on subsidization.

The OIG disagrees with the grantee’s assertion that the Foundation’s space in the
Modesto office was physically separate from the grantee’s space. The grantee’s
comments stated that signs distinguished the Foundation space from the grantee’s
space. A sign outside the building indicated that the Foundation and grantee
occupied separate suites. In fact, the two offices were in a single suite and were not
separated by a physical barrier. Foundation and grantee staff moved freely within the
suite. There were no signs inside the building that distinguished between the
Foundation and the grantee. We recognize that the Foundation no longer shares
space with the grantee in Modesto. At the time of our review a physical separation
problem existed and we did not change the finding.

In disagreeing with the report findings the grantee’s comments cited a review done by
OCE that found no program integrity violations. In December 2000 OCE completed a
limited review that covered some program integrity issues. A comprehensive
program integrity review was not done.

The OIG reaffirms its recommendations. Based on the comments provided by the
grantee, we renumbered the recommendations in this section as 1.1 through 1.5.




                                         16
GRANTEE COMMENT – STATEMENT OF FACTS
The grantee disagreed with the finding that it did not comply with the statements of
facts and client identity requirements of 45 CFR Section 1632.2. The grantee stated
it obtains statements of facts from and identifies all plaintiffs in 17200 type cases.
From time-to-time the grantee documents an attorney client relationship with
individuals through a non-litigation retainer agreement. These retainers may be for
the purposes of counseling and advising, but they do not authorize the grantee to file
suit on the client’s behalf. According to the grantee, these clients are not plaintiffs or
parties to the litigation and statements of facts are not required. Consequently, the
grantee did not agree to implement recommendation 2.1.

OIG RESPONSE
The OIG does not agree with the grantee’s assertion that it complies with 45 CFR
Part 1636. The grantee’s comments discussed its retainer agreements with clients
who were unnamed plaintiffs in the 17200 cases. Retainer agreements are not the
issue.

In 17200 cases, the grantee files complaints on behalf of named plaintiffs and
members of the general public who are similarly situated individuals and who would
benefit from the litigation. In certain of these cases, the grantee has clients it refers
to as “unnamed plaintiffs.” The grantee represents these “unnamed plaintiff” clients
in connection with the 17200 litigation. At times, the grantee pleads specific facts
about these clients in the complaints but does not name them as plaintiffs because
they are members of the general public who are similarly situated individuals and
would benefit from the litigation. This is precisely the type of situation Part 1636 was
intended to cover. The grantee need not name these individual clients in the
complaint, but under Part 1636, it must identify these clients to the defendant and
prepare a written statement of facts.

The OIG reaffirms its recommendation.

GRANTEE COMMENT – IMPROPER RENT PAYMENTS
The grantee disagreed with the OIG’s finding that it improperly paid rent for two
organizations co-located with the grantee’s offices in San Luis Obispo and Madera.

The grantee’s comments stated that rent was paid for a legal clinic that engaged in
non-restricted activities at the San Luis Obispo branch office. The grantee stated that
the clinic’s clients were overwhelmingly LSC eligible and the clinic fulfilled the
grantee’s PAI obligation. The grantee stated that the rent payments for the legal
clinic were reasonable and necessary for the performance of its grant and are proper
PAI expenditures. According to the grantee, its accounting staff inadvertently
discontinued allocating the rent payment to the PAI account, but this did not cause
the expense to be ineligible as PAI.


                                           17
The grantee provides a room rent free to a non-profit organization that promotes
community and economic development in its Madera branch office. The grantee
stated that the organization is not a legal services provider and does not engage in
restricted activities. The organization provides volunteers to work on community
education and maintains records of the volunteer hours. The value of the volunteer’s
activities far exceeded the value of one room that is provided rent free. The grantee
stated that it rents the entire building and the amount it pays is not increased by
allowing the community organization to occupy one room. The grantee stated that
LSC’s Property Acquisition and Management Manual allows it to provide the space
rent free and requires that rent be charged only to organizations that engage in
restricted activities.

Consequently, the grantee declined to implement recommendations 3.1 and 3.2.

OIG RESPONSE
We reviewed the grantee's comments and confirmed our finding that the grantee did
not comply with LSC requirements at its San Luis Obispo office. We deleted the part
of the finding related to the Madera office.

The legal clinic located in the San Luis Obispo branch office does not screen for
citizenship/alien eligibility status. Consequently, it is unclear how the grantee can
assert that the clients are “overwhelmingly [LSC] eligible clients.” The grantee has no
assurance that the legal clinic is only serving LSC eligible clients. Therefore, LSC
provided funds cannot be used to pay the clinic’s rent. The grantee agreed that
during the audit period the rent costs were not charged to the PAI program as the
OIG reported.

The grantee’s position on providing a rent free room to the community organization at
its Madera office has not completely persuaded us. However, we note that the
grantee explained that it incurred no additional costs. Due to the minor amounts
involved, we deleted that part of the rent finding relating to the Madera office and
modified our recommendations accordingly.

We do not agree that LSC’s Property Acquisition and Management Manual
requirement to charge rent applies only to organizations engaged in restricted
activities.

The OIG modified recommendations 3.1 and 3.2 to apply only to the San Luis Obispo
office.




                                          18
      APPENDIX I




I-1
      APPENDIX I




I-2
      APPENDIX I




I-3
      APPENDIX I




I-4
      APPENDIX I




I-5
      APPENDIX I




I-6
      APPENDIX I




I-7
      APPENDIX I




I-8
      APPENDIX I




I-9
         APPENDIX I




I - 10
         APPENDIX I




I - 11
         APPENDIX I




I - 12
         APPENDIX I




I - 13
         APPENDIX I




I - 14
         APPENDIX I




I - 15
         APPENDIX I




I - 16
         APPENDIX I




I - 17
         APPENDIX I




I - 18
         APPENDIX I




I - 19
         APPENDIX I




I - 20
         APPENDIX I




I - 21
         APPENDIX I




I - 22
         APPENDIX I




I - 23
         APPENDIX I




I - 24
         APPENDIX I




I - 25
         APPENDIX I




I - 26
         APPENDIX I




I - 27
         APPENDIX I




I - 28
         APPENDIX I




I - 29
         APPENDIX I




I - 30
         APPENDIX I




I - 31
         APPENDIX I




I - 32
                                                  APPENDIX -- II


           OIG STAFF AND CONSULTANT TEAM MEMBERS


Anthony M. Ramirez (Auditor-in-charge)

David Young

Abel Ortunio

Claudette Moore, Consultant

Terry Oehler, Esq., Consultant

John Carter, Esq., Consultant




                                         II - 1
